IN THE
SUPREME COURT OF THE UNITED STATES
HECTOR VALDEZ
PETITIONER
V.
UNITED STATES OF AMERICA
RESPONDENT
CERTIFICATE OF SERVICE AS TO PETITION FOR A WRIT OF CERTIORARI,
APPENDIX, AND MOTION TO PROCEED IN FORMA PAUPER'S
It is hereby certified that all parties required to be served have been served with a copy
of the petition for a writ of certiorari, appendix to the petition for a writ of certiorari, and
motion to proceed in forma pauperis on the 25th day of November, 2020 as follows:
By a third party commercial carrier, Federal Express, for delivery within 3 days thereto to:
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, D.C. 20530-0001
202-514-2203
By a third party commercial carrier, Federal Express, for delivery within 3 days thereto or
by hand delivering to the office of:
Donald Lockhart, AUSA
US Attorney's Office
District of Rhode Island
Fleet Center
50 Kennedy Plaza, 8th Floor
Providence, R.I. 02903
401-709-5000
I certify that I am a member of the bar of this court.

6612141- 6r I,

/s/ Robert B. Mann
Robert B. Mann
Attorney for Petitioner
1

